No. _____________

In the

Supreme Court of United States
________

Tobias O. Reed,
Petitioner
v.

Commonwealth of Virginia,
Respondent

$33(1',;
Supreme Court of Virginia Record No. 200074
Court of Appeals of Virginia No. 1305-15-4

Marvin D. Miller, Esq.
The Law Offices of Marvin D. Miller
Virginia State Bar #1101
1203 Duke Street
Alexandria, VA 22314
Phone: (703) 548-5000
Facsimile: (703) 739-0179
Email: ofc@mdmillerlaw.com
Counsel of Record for Petitioner

TABLE OF APPENDICES

Appendix A
Supreme Court of the United States remand to Virginia Supreme Court
Reed v. Commonwealth, Record No. 17-5402
(28 June 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . app-1
Appendix B Virginia Court of Appeals Opinion
Reed v. Commonwealth, 71 Va.App. 164 (2019)
(12 November 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . app-
Appendix C
Virginia Supreme Court Order denying Petition for Appeal
Reed v. Commonwealth, Record No. 200074
(21 May 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . app-

United States of America, ss!
THE PRESIDENT OF THE UNITED STATES OF AMERICA
17~5402

TOBIAS 0. REED,
Petitioner

v.
VIRGINIA
To the Honorable the Justices of the Supreme Court of Virginia.
GREETINGS:
Supreme Court of Virginia case, TOBIAS OGBANNA REED, Appellant ''·
VlRGINlA, Appellee, No. 161401, was submitted to the SUPREME COURT OF THE UNITED
STATES on the petition for writ of certiorari and the response thereto; and the Court having
granted the petition.
It is ordered and adjudged on June 28, 2018, by this Court that the judgment of
the above court in this cause is vacated, and the cause is 1·emanded to the Supreme Court of
Virginia for further consideration in light of Col'pentel' v. United States, 585 U.S._ (2018).
THIS CAUSE IS REMANDED to you in order that such proceedings may be
had in the said cause, in conformity with the judgment of this Court above stated, as accord
with right and justice, and the Constitution and Laws of the United States.
Witness the Honorable JOHN G. ROBERTS, JR., Chief Justice of the United
States, the 28'h day of June, in the year Two Thousand and Eighteen.

app-1

Supreme Court of the United States
No.

17-5402

TOBIAS 0. REED,
Petitioner

v.

VIRGINIA
ON PETITION FOR WRIT OF CERTIORARI to the Supreme Court of Virginia.
THIS CAUSE having been submitted on the petition fo1· writ of certio1·al'i and
the response thereto.

ON CONSIDERATION WHEREOF, it is ordered and adjudged by this Court that
the motion of petitioner for leave to proceed in.fo•·ma paupel'is and the petition for writ of
certiorari are granted. The judgment of the above court in this cause is vacated, and the
case is remanded to the Supreme Court of Virginia for furthe1• consideration in light of

Carpenter v. United Stales, 585 U.S._ (2018).
June 28, 2018

app-2

Reed v. Commonwealth, 71 Va. App. 164, 834 S.E.2d 505 (20 19)
IN THE COURT OF APPEALS OF VIRGINIA
ARGUED BY TELECONFERENCE

TOBIAS 0. REED

v.
COMMONWEALTH OF VIRGINIA
Record No. 1305-15-4
Decided: November 12, 20 19*
Present: Judges Petty, Beales and O'Brien

[Page 166] UPON REMAND FROM THE SUPREME COURT OF VIRGINIA
[Page 167] FROM THE CIRCUIT COURT OF THE CITY OF ALEXANDRIA, Lisa B. Kemler,
Judge

Affirmed.
COUNSEL
Marvin D. Miller (Law Office of Marvin D. Miller, on briefs), Alexandria, for appellant.
Victoria L. Johnson, Assistant Attorney General (Mark R. Herring, Attorney General; Victoria N.
Pearson, Deputy Attorney General; Toby J. Heytens, Solicitor General; Matthew R. McGuire, Principal
Deputy Solicitor General, on brief), for appellee.
OPINION
BEALES, J.- Appellant Tobias 0. Reed was convicted of distribution of cocaine, third or subsequent
offense. At trial, the Commonwealth introduced records of Reed's historical cell site location
information ("CSLI") to establish his proximity to the drug transaction on the day of the crime. This data
was initially obtained by the Commonwealth through an ex parte court order to the cell-service provider
pursuant to the Stored Communications Act ("SCA"), 18 U.S.C. § 2703, and the Virginia equivalent,
Code § 19.2-70.3. These statutes permitted the Commonwealth to obtain the ex parte order by "showing
that there [were] reasonable grounds to believe ... the records or other information sought, [were]
relevant and material to an ongoing criminal investigation." 18 U.S.C. § 2703(d). 1 The statutes did not
require a showing of probable cause.
Reed appealed his conviction to this Court, arguing, in part, that his Fourth Amendment rights were
violated by the collection of the CSLI without a warrant. This Court affirmed without reaching the

Printed fi·om CascFindcr®, Geronimo Development Corporation- Current through: 6/30/2020

app-3

Page 2

Ret:d v. Commonwealth. 71 Va. App. 16-t. 83-t S.E.2d 505 (2019)

Fourth Amendment issue, Reed v. Commonwealth, 16 Yap UNP 1305I54, No. I305-I5-4 (Va. Ct. App.
Aug. 30, 20 I6), and the Supreme Court refused Reed's petition for appeal. Reed v. Commonwealth, No.
16140 I (Va. Apr. 26, 20 17). Reed then filed a petition for a writ of certiorari with jPngc 168] the
United States Supreme Court, and his case was held in abeyance until that Court reached a decision in
Carpenter v. United States, 585 U.S._ 16402, I38 S. Ct. 2206 (2018).
On June 22, 20I8, the United States Supreme Court decided Carpenter. It held that the "Government's
acquisition of [Carpenter's] cell-site records was a search within the meaning of the Fourth
Amendment." !d. at 2220. It then granted Reed's petition for a writ of certiorari, vacated the judgment
below, and remanded the case to the Virginia Supreme Court "for further consideration in light of
Carpenter." Reed v. Virginia,_ U.S._, 138 S. Ct. 2702 (2018). The Virginia Supreme Court then
remanded the case to this Court with the same instructions.
After reinstating the matter on the docket, we directed the parties to file supplemental briefs
addressing how Carpenter impacted Reed's case. Both briefs were due on the same date. In its
supplemental brief, the Commonwealth argued that the exclusionary rule did not apply because at the
time Reed's CSLI was sought. the officers acted in good-faith reliance on the SCA and Virginia Code §
19.2-70.3(8). Reed then filed a motion to strike the Commonwealth's good-faith argument, contending
that the argument was waived and not properly before this Court because the Commonwealth did not
raise it earlier in the litigation. Reed's motion to strike also responded to the merits of the
Commonwealth's good-faith argument.
After reviewing the supplemental briefs and Reed's motion to strike, this Court issued an opinion
holding that the exclusionary rule did not apply because "the detectives and the Commonwealth's
attorney had a reasonable. good faith belief that their actions were constitutional at the time." Reed v.
Commonwealth, 69 Ya. App. 332, 339-40, 819 S.E.2d 446 (20 18). In a footnote, this Court denied
Reed's motion to strike the portion ofthe Commonwealth's brief that argued the good-faith exception. Id
at 338 n.3, 8I9 S.E.2d 446.
The Virginia Supreme Court granted Reed an appeal, vacated this Court's order, and remanded the
case back to this [Pnge 169] Court to allow Reed ''the opportunity to be heard on the good faith
question." We reinstated the case on our docket and directed Reed to file a supplemental brief. 2 We also
heard oral argument from both parties. We now consider these arguments.
I. BACKGROUND
In 20 II, Reed began working with Detective Benjamin George as a confidential informant for the
Alexandria Police Department. Pursuant to this arrangement, Reed was prohibited from engaging in any
drug transaction not authorized by Detective George.
On July 18, 2012, Detective John East was working undercover and using Fernando Payne to
purchase drugs from a "second source." Payne called the "second source" and then, as Payne walked off

Printt:d from CascFindcrR. Geronimo Development Corpomtion - Current through: 6/30/2020

app-4

Page 3

Reed v. Commonwealth. 71 Vu. App. 16-t. 83-t S.E.2d 505 (2019)

to meet the source and buy the drugs, he handed his phone to Detective East, telling him that if the
phone rings and it "says 'Tobias' that's my man. Pick up and tell him I'm coming."
Detective George, who was also working with Detective East on the transaction, observed Payne
waiting for the "second source" to arrive. As Payne waited, Detective George observed Reed drive up in
a silver Ford Escape. He watched as Payne entered the vehicle with Reed and exited a few minutes later,
rejoining Detective East in his vehicle. When Payne returned to Detective East, he was in possession of
cocaine. Detective George realized that Reed was the "second source" from whom Payne bought the
cocaine. He testified that he was "one hundred percent" sure that it was Reed whom he saw in the
vehicle with Payne. When the police later inspected Payne's phone, they found that the number
associated with "Tobias," 571-329-7478, was identical to a number used by Reed. [Page 170)
On August 3, 2012, relying on this information, Detective East applied for, and was granted, an ex
parte court order pursuant to the SCA and its Virginia equivalent, Code § 19.2-70.3(8). The order
required Verizon, the mobile phone service provider for the cell phone number 571-329-7478, to provide
the Commonwealth with approximately five months (May I, 2012 through October 3, 2012) ofCSLI for
that number.
Approximately two weeks later, an arrest warrant was issued for Reed for the July 18, 2012
distribution of cocaine. However, before it was served, Reed was sentenced to twenty-four months of
incarceration for violating conditions of his supervised release on an unrelated matter and immediately
taken into custody. It was not until June 5, 2014, when Reed was released from that incarceration, that
he was served with the arrest warrant on the cocaine charge.
In January 2015, the Commonwealth issued a subpoena duces tecum to Verizon's custodian of records
for the historical CSLJ for the 571-329-74 78 phone number. 3 The trial court limited the amount of CSLJ
the Commonwealth could receive through the subpoena duces tecum to the two days prior to the cocaine
transaction, the day of the transaction, and the two days following. Reed unsuccessfully attempted to
suppress the introduction of the CSLI, but the CSLI from July 18, 2012, was admitted at Reed's trial
where the custodian of records for Verizon used that information to testifY that Reed's cell phone
.. pinged" off towers in the general area where the cocaine transaction had occurred and that calls had
been routed through those towers.
Reed was found guilty at a bench trial. When announcing the verdict, the trial judge noted, among
other comments, that the CSLI placed Reed in the general location of the crime. He stated that "the
phone records ... corroborate the location of JPngc 171) the phone numbers used by Fernando Payne
and Tobias Reed."

II. ANALYSIS
As he did in his motion to strike the Commonwealth's good-faith argument, Reed again contends that
(I) "the Commonwealth waived its good faith argument when it failed to raise the argument in the trial

Printed from CaseFinder;ID, Geronimo Development Corporation -Current through: 6/30/2020

app-5

Page 4

Reed v. Commonwealth, 71 Va. App. 164,834 S.E.2d 505 (2019)

court or on direct appeal on the merits" and (2) even if good faith could be raised at this juncture, it does
not apply. We address each of these arguments in turn.

Waiver
Reed contends that the Commonwealth waived its good-faith argument by failing to raise the issue
earlier- before the case was decided by the United States Supreme Court and remanded to the Virginia
Supreme Court.
A similar argument was recently addressed by the Supreme Court in Collins v. Commonwealth, 297
Va. 207, 824 S.E.2d 485 (20 19). Similar to the situation in Reed, Collins also involved an unsuccessful
motion to suppress evidence of a warrantless search. /d. at 211, 824 S.E.2d 485. On appeal, this Court
and the Supreme Court of Virginia affirmed Collins's conviction, albeit on different grounds. !d. The
United States Supreme Court reversed, disagreeing with the Virginia Supreme Court's conclusion that
the search at issue was justified by the automobile exception. Jd. It remanded the case back to the
Virginia Supreme Court, noting that it was "leav[ing] for resolution on remand" whether the search
"may have been reasonable on a different basis, such as the exigent circumstances exception to the
warrant requirement." /d. (quoting Collins v. Virginia, 584 U.S._ 161027, 138 S. Ct. 1663, 1675
(2018)).
On remand, Collins argued, as Reed does now, that the Commonwealth should not be permitted to
raise the good-faith exception to the exclusionary rule as an alternate basis for affirming the conviction
because the Commonwealth "did not rely on the exception earlier in [the] litigation." /d. at 212 n.l,
(Page 172) 824 S.E.2d 485. The Supreme Court disagreed, explaining that appellate courts "have the
discretion to hear an appellee's new arguments upon a remand from the United States Supreme Court for
consideration of previously unaddressed issues." /d. The Virginia Supreme Court stated that allowing
the appellee to raise new legal arguments on remand is simply an extension of the "right-result-differentreason doctrine," which permits an appellee to "assert for the first time on appeal a purely legal ground
for upholding the challenged judgment." !d. In accordance with this principle, the Supreme Court of
Virginia permitted the Commonwealth to argue the good-faith exception, and affirmed Collins's
conviction on that basis. !d. at 227, 824 S.E.2d 485.
We find no meaningful distinction between this case and Collim·. 4 Here, the Commonwealth contends
that the evidence should not be excluded because the police were acting completely (Page 173) in
compliance with the law that was in effect at the time the search occurred - an argument based on "a
purely legal ground." Therefore, the Commonwealth is permitted to argue that the good-faith exception
to the exclusionary rule applies in this case, and we consider that argument now.

111e Good-Faith Exception to the Exclusionary Rule
In Carpe111er, the United States Supreme Court held that "an individual maintains a legitimate
expectation of privacy in the record of his physical movements as captured through CSLI." Carpenter,
585 U.S. at _ , 138 S. Ct. at 2217. It concluded that, given this expectation of privacy, "the

Printed from CaseFinder®, Geronimo Development Corporation -Current through: 6/30/2020

app-6

l'ag~

Reed v. Commonwealth. 71 Va. App. 164.834 S.E.2d 505 (2019)

Government must generally obtain a warrant supported by probable cause before acqmrmg such
records." /d. at 2221. The Court found that the SCA, which allowed the government to acquire cell-site
data by a court order only by showing "reasonable grounds" for believing that the records were "relevant
and material to an ongoing investigation," 18 U.S.C. § 2703(d), was "not a permissible mechanism for
accessing historical cell-site records." Jd. Therefore, Carpenter indicates that the initial acquisition of
CSLI in this case may have been unconstitutional. However, that fact - standing alone - does not
mean the evidence should have been excluded or that Reed's conviction should be reversed.
While CSLI is relatively new to our jurisprudence, the exclusionary rule is not. The exclusionary rule
was examined in Collins, where the Supreme Court reiterated that the rule's origins do not stem from any
"personal constitutional right" nor from any mandate implicit in the Fourth Amendment itself. Collins,
297 Va. at 214, 824 S.E.2d 485 (quoting Stone v. Powell, 428 U.S. 465, 486 ( 1976)). "Instead, 'the rule
is a judicially created remedy designed to safeguard Fourth Amendment rights generally through its
deterrent effect .... "' Stone, 428 U.S. at 486 (quoting United States v. Calandra, 414 U.S. 338, 348
(1974)). The rule's "sole purpose ... is to deter future Fourth Amendment violations." Collins, 297 Va.
at 214, 824 S.E.2d 485 (quoting [Page 174) Davis v. United States, 564 U.S. 229, 236-37 (2011)).
Because the rule "generates 'substantial social costs,' United States v. Leon, 468 U.S. 897, 907 (1984),
which sometimes include setting the guilty free and the dangerous at large," the United States Supreme
Court has held that suppression of evidence is '·our last resort, not our first impulse," Hudson v.
Michigan, 547 U.S. 586, 591 (2006).
"[W]hen investigators 'act with an objectively "reasonable good-faith belief' that their conduct is
lawful,' the exclusionary rule will not apply." United States v. Chavez, 894 F.3d 593, 608 (4th Cir.)
U.S._, 139 S. Ct. 278 (2018). "Objectively
(quoting Davis, 564 U.S. at 238), cert. denied, _
reasonable good faith includes 'searches conducted in reasonable reliance on subsequently invalidated
statutes."' Jd. (quoting Davis, 564 U.S. at 239). Applying the good-faith exception to searches performed
in reliance on subsequently invalidated statutes comports with the purpose of the exclusionary rule
because, where a "statute is subsequently declared unconstitutional, excluding evidence obtained
pursuant to it prior to such a judicial declaration will not deter future Fourth Amendment violations by
an officer who has simply fulfilled his responsibility to enforce the statute as written." ll/inois v. Krull,
480 U.S. 340, 350 (1987). "Unless a statute is clearly unconstitutional, an officer cannot be expected to
question the judgment ofthe legislature that passed the law." ld. at 349-50.
In 2012, when the CSLI was sought, the officers complied with the provisions of SCA and Virginia
Code § 19.2-70.3(8), which were certainly 1101 ''clearly unconstitutional." At that time, neither the
United States Supreme Court nor a Virginia appellate court had held that a warrant was required before a
subscriber's CSLI could be obtained from the cell-service provider, nor had either yet declared that the
SCA was "not a permissible mechanism for accessing historical cell-site (Page 1751 records."
Carpenter, 585 U.S. at_, 138 S. Ct. at 2221. Furthermore, at the time the information was sought, the
constitutionality of the SCA was supported by the third-party doctrine, which provides "that the Fourth
Amendment does not prohibit the obtaining of information revealed to a third party and conveyed by
[the third party] to Government authorities." Uniled Stales v. J\;fil/er, 425 U.S. 435. 443 (1976).

Printed li·om CascFindcr®, Geronimo Development Corporation - Current through: 6/30/2020

app-7

5

Page 6

Reed v. Commonwealth. 71 Va. App. 164.834 S.E.2d 505 (2019)

Therefore, at the time the CSLI was obtained in this case, the officers were acting in good-faith reliance
on the Jaw in effect at the time, and the exclusionary rule, consequently, docs not apply. 5
Despite the presumption of the constitutionality of these two statutes and despite the third-party
doctrine, Reed argues that the United States Supreme Court's decision in United States v. Jones, 565
U.S. 400, 404 (20 12), would have alerted a reasonable officer that it was unconstitutional for the
government to obtain the CSLI without a warrant. He contends that Jones put the government and the
officers on notice that "Fourth Amendment protections extended to electronic tracking" and that
"individuals have a recognized right to privacy that protects their right not to be constantly surveilled."
In Jones, the United States Supreme Court held that "the Government's installation of a GPS device on a
target's vehicle, and its use of that device to monitor the vehicle's movements, constitutes a (Page 176]
'search."' Jones, 565 U.S. at 404 (footnote omitted). However, the Jones decision does not support
Reed's argument because the Supreme Court based its decision in Jones on the government's trespassory
intrusion onto Jones's property when it placed the GPS on the Jeep of Jones's wife. ld at 404-05. No
such physical intrusion occurs when the government seeks CSLI from a third-party cell-service provider,
as occurred in this case. Therefore, Jones docs not actually govern the question before us and,
consequently, does not alter our conclusion that the officers were objectively reasonable in their reliance
on the SCA and Virginia Code§ 19.2-70.3(8). See United States v. Chambers, 751 Fed. Appx. 44,47
(2d Cir. 20 18) ("[E]ven after Jones, officers could have reasonably believed that the third-party doctrine
U.S. _ , 139 S. Ct. 1209
meant a warrant was not required to obtain cell-site data."), cert. denied, _
(2019).
Reed also argues that the good-faith exception cannot apply in this case because this ''case concerns
the granting of a prosecutor's motion by a trial court" and not "police action." Even if we were to agree
with Reed's contention that this case docs not involve police action (although Detective East signed the
affidavit used to obtain the court order). this contention would not defeat the application of the goodfaith exception. We agree with the United States Court of Appeals for the Third Circuit, which
addressed this precise issue when it found that the good-faith exception applied when the government
actors in that case relied on the SCA to obtain the appellant's CSLI. Dispensing with the appellant's
argument, the Court stated, "The relevant inquiry here is not who the state actor is, but rather, whether
the state actor had a reasonable, good faith belief that his actions were legal. The prosecutors relied on a
then-valid statute whose constitutionality had been confirmed by this Circuit. The good faith exception
applies." United S.tates v. Gokl~tein, 914 F.3d 200, 206 (3d Cir. 20 19). Therefore, to the extent that the
search in this case was conducted by the Commonwealth's Attorney, a state actor, the good-faith
exception still applies. (Page 177]
Ill. CONCLUSION
On remand from the Virginia Supreme Court, we permitted Reed to file an additional brief and had
oral argument. After further careful consideration, we conclude that the Commonwealth is permitted to
argue that the government acted in good faith, even if it did not raise that issue before the case was
remanded from the United States Supreme Court after the Court's 2018 decision in Carpenter. We also
conclude that the good-faith exception to the exclus,ionary rule applies here because the government

Printed from CaseFinderOi'. Geronimo Development Corporation -Current through: 6/30/2020

app-8

Pagc7

Reed v. Commonwealth, 71 Va. App. 164,834 S.E.2d 505 (2019)

actors- both the police officers and the prosecutor- were acting in good-faith reliance on the SCA
and Virginia Code § 19.2-70.3(8), which were certainly not "clearly unconstitutional" at the time. For
all of these reasons, we affirm Reed's conviction.

Affirmed.
FOOTNOTES
• [Editor's Note: Appealed to the Supreme Court of Virginia].
1

The Virginia counterpart authorized ex pane orders when an "investigutivc or law-enforcement officer shows tlulltherc is reason

to believe the records or other information sought arc relevant and material to an ongoing criminal investigation." Code § 19.2·
70.3(B).
2 We did not request an additional brief from the Commonwealth us it hud nlrcady submitted a brief on the good-fuith issue, but

we did receive a letter from the Commonwealth providing additional legal nuthorit>··
3

The CSLI requested by the subpoena had already been obtained by the e.-c pane order. According to the Commonwealth. the

purpose behind the subpoena was to authorize Vcrizon's custodian of records to appear at trial and authenticate the records.
4

At oral argument before this Court, Reed argued th111 Collins is distinguishable because the opinion from the United States

Supreme Court in Colli11s noted that it "lc[fl] lbr resolution on remand" whether the SCitrch may have been "reasonable on a
diOi:rcnt basis." Collins v. Cotmii0/1\I'ealth. 297 Va. at 211, 824 S.E.2d 485 (quoting Col/i11s v. Virgi11ia, 584 U.S. at_, 138 S.
Ct. Ill 1675). Thus, Reed contends, the United States Supreme Court spccilically directed the Virginia Supreme Court to consider
new urgumcnts. However. the rntionnlc in Collins 1br allowing the Commonwealth to raise the good-faith argument on remand
from the United States Supreme Court docs not rely on that Court's order: it relics on the premise that allowing r11:w legal
arguments on remand is a logical extension of the "right-result-dilli:rcnl·rcason doctrine." /d. at 212 n.l. 824 S.E.2d 485.
Furthermore, the remand order from the United States Supreme Court in Reed permits "further consideration" of the case in light

ofCllrpenler, without any additional limitations on the matters to be considered. Reecl ''· Virginia,_ U.S._. 138 S. Ct. 2702
(20 18). Therefore, even that order permits this Court to consider whether Carpelller has no effect on the ultimate outcome of Reed.
including an argument that the conviction should be affirmed because the good-fuith exception to the exclusionary rule may apply.

In addition, Reed's argument that u new legal theory cunnot be raised on rcmnnd has troubling implicutions. If his urgument
were accepted, in every case where u search took place in reliance on a statute, the Commonwealth would need to argue good Iilith
to the trial court in the suppression hearing at the trial level und on uppeul in the event that the statute was Iuter lbund to be
unconstitutionul on appeal.
5

Notably, Carpenter's conviction wus ultimately affirmed by the United States Court of Appeals for the Sixth Circuit nficr the cusc

was remundcd by the United States Supreme Court. Just as we do here, the Sixth Circuit held thut the exclusionary rule did not
apply because the officers in thut cusc acted in gnod-fuith rcliuncc on the SCA when they acquired Carpenter's CSLI. United SICltes

v. Carpelller, 926 F.3d 313, 318 (6th Cir. 2019).

Printed from CnscFindcr®, Geronimo Development Corpormion ·Current through: 6/30/2020

app-9

Page 8

Reed v. Commonwealth, 71 Va. App. 164,834 S.E.2d 505 (2019)

Our holding aligns Virginia with the numerous federal appellate couns that have applied the good-faith exception to the
exclusionary rule where officers relied on 18 U.S.C. § 2703(d) to obtain CSLI prior to the decision in Carpemer. See United

States v. Gofd:rtei11, 914 F.3d 200, 203 (3d Cir. 20 19); Carpemer. 926 F.3d at 318; United Swte:r v. Korte, 918 F.3d 750, 758 (9th
Cir. 2019); Chave:, 894 FJd at 608; United States v. Curtis. 901 F.3d 846, 849 (7th Cir. 2018); United States v. Joyner, 899 F.3d
1199, 1204 (lith Cir. 2018) (per curiam).

Printed from CaseFindcr®, Geronimo Development Corporation· Current through: 6/30/2020

app-10

VIRGINIA:
!In tlie

Sup~U!nte

em; oJ, !JliclutWiuL

Olt

eo.wtt uj Vbtgiltia ftdd at tlie Sup~Wtw &wd 9JuildU1fJ ilt tlie

g~c~.ay

tlie

21~t

day c4 .!Kay., 2020.
Appellant,

Tobias 0. Reed,
against

Record No. 200074
Court of Appeals No. 1305-15-4

Commonwealth of Virginia,

Appellee.
From the Court of Appeals of Virginia

Upon review of the record in this case and consideration ofthe argument submitted in
support of the granting of an appeal, the Court refuses the petition for appeal.
The Circuit Court of the City of Alexandria shall allow court-appointed counsel the fee
set forth below and also counsel's necessary direct out-of-pocket expenses. And it is ordered
that the Commonwealth recover of the appellant the costs in this Court and in the courts below.
Costs due the Commonwealth
by appellant in Supreme
Court of Virginia:
Attorney's fee

$1,300.00 plus costs and expenses

A Copy,
Teste:
Douglas B. Robclen, Clerk
By:
Deputy Clerk

app-11

